                                              Office of the Assistant Secretary
                                              for Administration and Management




Office of Inspector General—Office of Audit




                                              Award and Management of Contracts
                                              for Encryption Software
                                              Were Significantly Flawed




                                                                      Date Issued: March 31, 2005
                                                                  Report Number 05-05-005-07-720
U.S. Department of Labor                               March 2005
Office of Inspector General
Office of Audit                                        AWARD AND MANAGEMENT OF
                                                       CONTRACTS FOR ENCRYPTION
                                                       SOFTWARE WERE SIGNIFICANTLY
BRIEFLY…
Highlights of Report Number: 05-05-005-07-
                                                       FLAWED
                                                       WHAT OIG FOUND
720, to the Deputy Secretary of Labor.
                                                         • Significant irregularities existed in DOL’s award of a
WHY READ THE REPORT                                        sole-source contract to Meganet, including the
                                                           failure of the former Deputy CIO to disclose an
This report discusses issues surrounding the               apparent conflict of interest.
Department of Labor’s (DOL) efforts to purchase
and implement encryption software, including:            • Overall responsibility for the Information Technology
                                                           (IT) and procurement functions are delegated to one
• DOL’s award and administration of a sole-source          executive, creating inadequate separation of duties
  contract to the Meganet Corporation.
                                                         • The scope of the sole-source contract awarded to
• DOL’s decision not to use the Meganet software           Meganet significantly exceeded the procurement
  and services, purchased at a cost of $3.8 million.       proposal that was presented to DOL’s Procurement
                                                           Review Board (PRB) for consideration.
• DOL’s purchase of Entrust encryption software
  through a contract with Videla International           • DOL’s decision to abandon the Meganet products,
  Corporation.                                             purchased for $3.8 million, was not supported.

• The current status of DOL’s file and e-mail          WHAT OIG RECOMMENDS
  encryption capability.
                                                       We recommended that the Deputy Secretary of Labor:
WHY OIG DID THE AUDIT
                                                         • Remove the procurement function from OASAM and
In July 2003, a complainant raised concerns about a        create an independent Acquisition Office that would
contract awarded by DOL to the Meganet                     report directly to the Deputy Secretary.
Corporation for the purchase of encryption software
and services. We initiated a preliminary review.         • Establish a process to independently review and
                                                           approve decisions to (a) terminate contracts or
On August 4, 2003, DOL’s Assistant Secretary for           (b) not use products or services already purchased.
Administration and Management (ASAM) referred
the Meganet contract to the DOL Inspector General      We also recommended that the ASAM:
for audit. The ASAM noted that the contract
awarded to Meganet differed significantly in scope       • Implement controls to ensure that preaward activities
and value from the proposal reviewed and                   are completed before contract execution, including
recommended by DOL’s Procurement Review Board              reconciliation of limits recommended by the PRB.
(PRB) and approved by the ASAM. In addition, the
ASAM stated his concerns that the Meganet                • Emphasize conflict of interest laws and regulations
software did not perform as expected, that the award       to all employees during annual ethics training, and
of the contract on a sole-source basis might have          remind them of the responsibility to report
been inappropriate, and that the price paid by DOL         wrongdoing or suspicions of wrongdoing to the OIG.
may not have been “fair and reasonable.”
                                                         • Direct IT staff to execute and document a test of the
READ THE FULL REPORT                                       Meganet and Entrust products and determine
                                                           whether and how to use them in meeting DOL’s
To view the report, including the scope,                   encryption needs.
methodology, and full agency response, go to:
                                                       DOL responded that it has already made some policy
http://www.oig.dol.gov/public/reports/oa/200           and staffing changes, plans to implement additional
5/05-05-005-07-720.pdf                                 controls, and will consider separating the procurement
                                                       function from program responsibilities.
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                   Award and Management of Contracts for
                                                              Encryption Software Were Significantly Flawed




Table of Contents
EXECUTIVE SUMMARY ........................................................................................................iii

ASSISTANT INSPECTOR GENERAL’S REPORT .................................................... 1

RESULTS, FINDINGS, AND RECOMMENDATIONS................................................ 4

         FINDING 1 - There Were Significant Irregularities in the
                     Procurement Process Leading to Award of
                     the Meganet Contract ................................................................ 4

         FINDING 2 - Scope of the Meganet Contract (and Subsequent
                     Modifications) Varied Significantly from the
                     Proposal Presented to the PRB for Consideration................... 12

         FINDING 3 - DOL’s Reasons for Deciding Not to Use the Products
                     Purchased from Meganet Were Not Supported ....................... 15

         FINDING 4 - DOL Has Spent Millions of Dollars on Encryption
                     Software and Other Products That Are Not Being Used.......... 21

OVERALL AUDIT CONCLUSION............................................................................ 23

RECOMMENDATIONS............................................................................................ 24

EXHIBIT
  A. Timeline of Key Events ................................................................................. 31

APPENDICES
  A. Background ................................................................................................... 35
  B. Objectives, Scope, Methodology, and Criteria .............................................. 39
  C. Acronyms and Abbreviations ........................................................................ 41
  D. Definitions of Key Technical Terms............................................................... 43
  E. DOL Response to Draft Report ..................................................................... 45




U.S. Department of Labor—Office of Inspector General
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




ii                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed


Executive Summary
We initiated an audit of the Department of Labor’s (DOL) award and management of
a contract with the Meganet Corporation (Meganet) to purchase file encryption
software and related services. Our interest arose from concerns reported to us by a
complainant. Subsequently, the Inspector General received a memorandum from
the Assistant Secretary for Administration and Management (ASAM) raising
concerns related to this contract.

Our objectives were to determine:

   •   Was the sole-source contract awarded to Meganet in compliance with
       government-wide procurement regulations and DOL procurement policies?

   •   Did DOL provide adequate justification for not using the products purchased
       through the Meganet contract and, if so, did DOL adequately justify not
       attempting to recover the $3.8 million paid to Meganet?

   •   What is the current status of DOL’s file and e-mail encryption capability?

In many instances, DOL files did not contain adequate documentation to support
decisions made and actions taken in awarding and managing the Meganet contract,
abandoning use of the Meganet products, and procuring Entrust encryption
products. DOL personnel frequently provided conflicting accounts of related events.
As a result, we could not always determine the validity or rationale of DOL decisions
and actions. More importantly, DOL officials with oversight responsibility for the IT
and procurement functions could not demonstrate that their decisions were sound.

We found the following:

   1. Delegating responsibility for Information Technology (IT) and procurement
      functions to one individual – the ASAM – results in inadequate separation of
      duties and creates an organizational conflict of interest when purchasing IT
      products and services.

   2. There were significant irregularities in the process of awarding the Meganet
      contract. Specifically, there was (a) no documentary evidence that the need
      to purchase encryption software was reviewed by DOL’s Technical Review
      Board (TRB); (b) inadequate documentation of the Information Technology
      Center’s evaluations of preproposal submissions; (c) no written justification
      for use of a sole-source contract; (d) a failure of the former Deputy Chief
      Information Officer to disclose an apparent conflict of interest; and (e) a
      possible bias in preparing the Statement of Work.



U.S. Department of Labor—Office of Inspector General                                 iii
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

     3. Office of the Assistant Secretary for Administration and Management
        (OASAM) and Office of the Solicitor officials, who at some point became
        aware of a relationship between the former Deputy CIO and Meganet’s
        Corporate Counsel that may have created an apparent conflict of interest in
        awarding the Meganet contract, did not refer the matter to the Office of
        Inspector General (OIG).

     4. The scope of the original contract awarded to Meganet included a second
        product not in the proposal presented to DOL’s Procurement Review Board
        (PRB) and approved by the ASAM as a sole-source procurement. The
        contract was later modified to add a third product and adjust the quantities
        available for purchase without further PRB review or approval.

     5. In December 2002, DOL entered into a lease agreement with Videla
        International Corporation to obtain Entrust products for a department-wide
        Public Key Infrastructure (PKI) solution. Two of these Entrust products, digital
        signature and e-mail encryption duplicated the functions of products
        previously purchased from Meganet.

     6. The ASAM’s stated reasons for deciding not to use the products purchased
        from Meganet were not supported. Although the ASAM and his staff stated
        that the Meganet software did not perform as expected in the planned DOL
        PKI environment, there were no test results or other documentation to support
        these assertions. Recent OIG tests of the Meganet product VME 2003
        indicated that the product functioned in OIG’s test environment that was
        configured to represent the environment described in the contract.

     7. DOL obtained large quantities of encryption products at a cost of $5.4 million
        without a fully deployed PKI. Neither the Meganet products and services
        ($3.8 million) nor the Entrust products and services ($1.6 million) currently
        provide benefit to DOL.

CONCLUSION

The Meganet contract was not properly awarded, modified, or managed because of
a lack of organizational separation of duties, inadequate oversight, and insufficient
internal controls. Furthermore, individuals knowingly made decisions and took
actions that violated Government regulations and DOL policies and may not have
been in the best operating or financial interests of DOL. As a result, (a) a contract
may have been improperly awarded on a sole-source basis, (b) $3.8 million in
Meganet products have gone unused without adequate justification, and (c) DOL
spent an additional $1.6 million (as of December 2004) on Entrust products to satisfy
some of the same technical requirements as the unused Meganet products. The
OIG believes that until procurement and programmatic responsibilities are properly
separated and effective controls put in place, DOL continues to be at risk for the
wasteful and abusive practices evident in its handling of the Meganet contract.


iv                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed


RECOMMENDATIONS

We recommend that the Deputy Secretary of Labor:

   1. Remove the procurement function from OASAM and create an independent
      Acquisition Office whose Director would (a) supervise all DOL procurement
      staff and (b) report directly to the Deputy Secretary.

   2. Establish a process for an independent review and approval of decisions to
      (a) abandon or terminate active contracts or (b) not use products or services
      already purchased. This review and approval should be made by an
      individual or group independent of the DOL agency(ies) involved in the
      purchase or use of the product or service.

   3. Remind all DOL employees of their responsibility to immediately report
      reasonable suspicions of wrongdoing to the OIG.

We also recommend that the Deputy Secretary instruct the ASAM to:

   4. Develop and implement procedures to ensure that all required preaward
      activities (e.g., TRB review, proposal evaluation, etc.) are completed and
      documented prior to execution of a final contract.

   5. Emphasize conflict of interest laws and regulations to all employees during
      fiscal year 2005 annual ethics training.

   6. Develop and implement a procedure to reconcile the terms of PRB approval
      with the related contract terms before final contract execution.

   7. Direct Information Technology Center staff to execute and document the
      results of a formal test of both the Meganet and Entrust products and
      determine whether and how to use them in meeting DOL’s overall encryption
      needs or otherwise obtain value to DOL for the costs incurred.

   8. Develop a policy and implement controls to limit the quantities of information
      technology products that are purchased until there is documented evidence
      that the products are deployable in DOL’s system environment.

DOL RESPONSE

In a written response to a draft of this report, the Deputy Secretary stated that some
steps had already been taken to correct the procurement problems identified in this
report and that additional corrective actions would be implemented. Specifically, he
stated that the Department had (a) instituted controls to prohibit expenditures for
sole-source contracts that exceeded 10 percent of the amount approved by the PRB
and the duration approved by the PRB without prior approval by the Chief

U.S. Department of Labor—Office of Inspector General                                 v
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

Acquisition Officer; (b) changed the staff closest to the award of the Meganet
contract. He also stated that the Department will (c) carefully weigh the reasons
provided for recommending the separation of the procurement function from
OASAM; (d) establish a policy and procedure for reviewing the termination of
substantial or sensitive contracts; (e) remind employees of their responsibility to
report suspected wrongdoing to the OIG; and (f) will continue to address conflict of
interest rules in its 2005 required ethics training for all employees.

The Deputy Secretary stated that conducting and documenting a formal test of the
Meganet products operational capabilities would provide no benefit because recent
OMB guidance requires all Federal agencies to use one of three approved PKI
service providers. None of these providers uses Meganet encryption software.

OIG CONCLUSION

The response provides sufficient detail to resolve one of the eight OIG
recommendations. The other recommendations remain unresolved pending
additional or more detailed information concerning planned corrective actions. The
OIG does not agree with the Department’s position that the recent OMB guidance
eliminates any ability to utilize the Meganet products purchased.




vi                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 05-05-005-07-720
                                                      Award and Management of Contracts for
                                                 Encryption Software Were Significantly Flawed


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC. 20210




                          Assistant Inspector General’s Report




The Honorable Steven J. Law
Deputy Secretary of Labor
U.S. Department of Labor
200 Constitution Ave., N.W.
Washington, DC 20210

In July 2003, a complainant raised concerns about a contract awarded by the U.S.
Department of Labor (DOL) to the Meganet Corporation (Meganet) for the purchase
of encryption software1 and services. We initiated a preliminary review. In August
2003, DOL’s Assistant Secretary for Administration and Management (ASAM) sent a
memorandum to the DOL Inspector General (IG), referring the Meganet contract for
audit. The ASAM’s memorandum noted that the Meganet contract differed
significantly in both scope and value from the proposal reviewed and recommended
by DOL’s Procurement Review Board (PRB) and approved by the ASAM for a
sole-source award. In addition, the ASAM stated his concerns that the Meganet
software did not perform as expected, the award of the contract on a sole-source
basis might have been inappropriate, and the price paid by DOL may not have been
“fair and reasonable.”

In early 2001, DOL’s Information Technology Center (ITC) identified a need for a
commercial-off-the-shelf (COTS) application to encrypt files. To identify companies
that could potentially offer products to meet this need, DOL’s Office of Procurement
Services (OPS) published a Request for Information (RFI). Since 8 of the 15
companies responding to the RFI were small businesses, DOL designated this
procurement as a “small business” set-aside. OPS then issued a proposed
Statement of Work (SOW) to the eight responding small businesses and asked that
each company submit a capability study. Three of the small businesses responded.
By evaluating the information provided by these three small businesses, ITC
concluded that Meganet was the only respondent capable of meeting the
requirements. The former Deputy Chief Information Officer (CIO)2 requested that
1
 Technical concepts referred to in this report are defined in Appendix D.
2
 DOL’s former Deputy Chief Information Officer was also the Director of DOL’s Information
Technology Center. The individual who served in this dual capacity during the award of the Meganet
contract left DOL employment on March 28, 2003. Her successor (referred to in this report as the
current Deputy CIO) also holds these dual responsibilities.

U.S. Department of Labor—Office of Inspector General                                         1
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

the PRB review and recommend approval of a sole-source contract award to
Meganet. The Procurement Review Board recommended, and the ASAM approved,
the award of a sole-source contract to Meganet to “obtain a product and service for
the encryption process needed for the Employee Computer Network” at an
estimated cost of $950,000.

In February 2002, OPS awarded Meganet a sole-source contract to purchase (a) file
encryption software and services and (b) digital signature software and services at a
potential cost between $1.08 million and $4.03 million. Four months later (June
2002), OPS modified the contract to add a third product and services for e-mail
encryption. This modification also reduced the maximum quantities available under
the contract for each product and service. There is no evidence that the PRB
reviewed, or that the ASAM approved, use of this sole-source contract to purchase
digital signature or e-mail encryption products.

In March 2003, after spending $3.8 million for products and services under the
Meganet contract, the ASAM decided not to install any of the software purchased
from Meganet. Based on information provided to him by his staff, the ASAM
concluded that the Meganet products would not function properly in DOL’s
environment. The current Deputy CIO informed Meganet in a September 2003 letter
that DOL did not intend to use the Meganet products.

Despite the assertion that the Meganet products purchased would not function
properly, the ASAM also decided not to attempt to recover any of the funds paid to
Meganet. An attorney from DOL’s Office of the Solicitor (SOL) advised the Office of
Inspector General (OIG) that it could not defend terminating the contract for default
because the language of the contract was “murky” and it was not clear that Meganet
had not fulfilled all of its obligations under the contract.

In December 2002, DOL began procuring encryption software and hardware by
Entrust through a lease agreement with Videla International. Two of the Entrust
products duplicated the functions – digital signature and e-mail encryption – of
products previously purchased from Meganet. As of December 2004, DOL had
spent $1.6 million on products and services under the Videla contract. However,
neither the Meganet nor the Entrust encryption products are currently being widely
used in DOL because an essential part of the overall security solution, DOL’s Public
Key Infrastructure (PKI), is still being piloted by a limited number of users. [See
Exhibit A for a timeline of key events, and Appendix A for more background
information.]

The Office of the Assistant Secretary for Administration and Management (OASAM),
ITC, OPS and the PRB provided very limited documentation to support the
procurement and contracting decisions and related actions in these matters.
Personnel involved in awarding the contract to Meganet, abandoning the Meganet
products, and acquiring the Entrust encryption products, presented different, and
often conflicting, accounts of events. These matters remains under OIG review.


2                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed


Our objectives were to determine:

   •   Was the sole-source contract awarded to Meganet in compliance with
       government-wide procurement regulations and DOL procurement policies?

   •   Did DOL provide adequate justification for not using the products purchased
       through the Meganet contract and, if so, did DOL adequately justify not
       attempting to recover the $3.8 million paid to Meganet?

   •   What is the current status of DOL’s file and e-mail encryption capability?




U.S. Department of Labor—Office of Inspector General                                 3
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


Results, Findings, and
Recommendations
OBJECTIVE: Was the sole-source contract awarded to
           Meganet in compliance with
           government-wide procurement regulations
           and DOL procurement policies?
No. The process followed in awarding the sole-source contract to Meganet did not
comply with government-wide procurement regulations or DOL procurement
policies. There were significant irregularities as described in Findings 1 and 2.
These irregularities cast doubt on the appropriateness of awarding this contract to
Meganet on a sole-source basis. By delegating responsibility for Information
Technology (IT) and Procurement functions to one individual, the ASAM, the
resultant lack of separation of duties facilitated this lack of compliance with
procurement requirements.


                                           There were numerous irregularities in the
    Finding 1 - There Were                 process used by DOL to award a sole-source
    Significant Irregularities in          contract to Meganet. Specifically, there was
    the Procurement Process                (a) no documentary evidence that the need to
    Leading to Award of the                purchase encryption software was reviewed
                                           by DOL’s Technical Review Board (TRB);
    Meganet Contract
                                           (b) inadequate documentation of ITC’s
                                           evaluations of pre-proposal submissions;
                                           (c) no written justification for use of a
sole-source contract; (d) a failure of the former Deputy CIO to disclose an apparent
conflict of interest; and (e) a possible bias in preparing the SOW. Individually, and
collectively, these irregularities cast doubt on the appropriateness of awarding this
contract to Meganet on a sole-source basis.

No Documentary Evidence that DOL’s TRB Reviewed the Need for Encryption
Software

There was no documentation that the need for encryption software was presented
to, reviewed by, or approved by the TRB as required by DOL policy. Therefore,
there is no assurance that the encryption software requirement was properly defined
in relation to DOL’s overall IT structure.




4                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

Department of Labor Manual Series (DLMS) 9, Chapter 200, DOL Guide to IT
Capital Investment Management, May 2000, states:

       The TRB provides IT investment analysis and recommendations for
       above threshold ($5 million and above annually) and crosscutting
       initiatives to the [Management Review Council] for approval.
       [Emphasis added.]

It further states,

       Technology that is new to the Department or sets new technological
       direction for an Agency or the Department must be presented to the
       TRB for review.

Examples of crosscutting initiatives in the Guide include matters of interoperability,
infrastructure, sensitive and high-visibility initiatives, and instances where several
agencies have similar IT requirements. The need for encryption software, which the
Meganet contract was aimed at fulfilling, was a crosscutting initiative based on all of
these criteria. It was also a new technology within DOL. Therefore, it should have
been reviewed and approved by the TRB regardless of the financial value of the
investment.

The Contracting Officer’s Technical Representative (COTR) for the Meganet
contract stated that the requirement was presented to and discussed by the TRB
prior to awarding the contract to Meganet. The former Deputy CIO, who was Chair
of the TRB at the time of the procurement, also stated that the requirement for file
encryption was reviewed by the TRB. However, our review of TRB meeting minutes
for the period April 2000 through February 2003, found no mention of file encryption
requirements, the Meganet products, or the Meganet contract.

Inadequate Documentation of ITC’s Evaluation of Preproposal Submissions

ITC did not adequately define or document its evaluation of preproposal submissions
by potential offerors. Therefore, there is no assurance that Meganet actually was
the only (or best) small business capable of meeting ITC’s file encryption
requirement.

On May 2, 2001, DOL published an RFI concerning its file encryption requirements.
Since eight of the responses to the RFI were small businesses, DOL designated the
file encryption procurement as a “small business set-aside.” On June 14, 2001, DOL
mailed a SOW to these eight small businesses inviting each potential offeror to
submit a “capability statement, qualifications, and references” for review. This
mailing was a presolicitation notice as defined in the FAR (Subpart 15.202). Three
of the eight small businesses provided responses. One submission was
immediately judged to be “non-responsive.” The other two submissions were
subjected to a technical evaluation based on a point system. However, DOL did not


U.S. Department of Labor—Office of Inspector General                                 5
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

clearly communicate the evaluation factors to the potential offerors nor was
documentation of the method and basis of these evaluations available for our
review. Specifically, we noted that:

    •   The notice provided to potential offerors on June 14, 2001, did not clearly
        identify the evaluation factors as required by FAR.
    •   The evaluation score sheets contained no supporting rationale for the point
        values assigned to the various evaluation criteria for each proposal.
    •   The evaluation score sheets were unsigned and undated.
    •   Two sets of score sheets had conflicting results.

These deficiencies prevented us from determining whether Meganet was properly
identified as the sole responsible small business capable of meeting DOL’s
requirements.

FAR Section 15.202 states

         The presolicitation notice should identify the information that must be
         submitted and the criteria that will be used in making the initial
         evaluation. Information sought may be limited to a statement of
         qualifications and other appropriate information. . . .

While the SOW provided to potential offerors in the June 14, 2001, mailing identified
several broad technical requirements for the file level encryption application needed
by DOL, it did not identify specific evaluation factors to be used in assessing
responses received. For example, the evaluation score sheets we were provided,
that were used in assessing submitted responses, contained six “ease of use”
factors. Although the need to “demonstrate ease of use” was included in the SOW
provided to the potential contractors, no specific evaluation criteria were defined.

When interviewed by OIG auditors, the former Deputy CIO stated that technical
evaluations of responses from two contractors – Meganet and Systems Plus – were
performed. She explained that she assigned this responsibility to two of her staff
and subsequently reviewed the resulting evaluation forms. She stated that Systems
Plus’s proposal was not a COTS product; therefore, she concluded that Meganet
was the only responsive small-business submission. The COTR for the Meganet
contract also told OIG auditors that signed copies of the evaluations were prepared
and forwarded to the Procurement Office and that additional signed copies of the
evaluations were maintained in ITC’s official file and in the COTR’s personal file.

The COTR alleged that she provided ITC’s official file and her personal Meganet file
to the ASAM’s Special Assistant and the CIO’s Special Assistant, at their request, for
review. According to the COTR, when the files were returned, several documents
(including the signed copies of the evaluations, a chronology of events, and personal
notes) had been removed from the files. The ASAM’s Special Assistant and the



6                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

CIO’s Special Assistant acknowledge requesting and reviewing these files, but deny
removing any of their contents.

During the course of the audit, a former ITC staff member that we interviewed stated
that he completed and signed product evaluation forms. He also stated that the
evaluation materials were bundled and provided to the COTR. However, our review
located only two sets of unsigned, undated evaluation forms in the files OASAM
provided to us.

The unsigned, undated response evaluations demonstrated that two small
businesses submitted responses that were each scored on two sets of score sheets.
In one set of evaluations, Meganet’s proposed product received zero points because
it was deemed incompatible with the version of the Windows operating system being
used by DOL. The product proposal from Systems Plus received 75 points.

One of the evaluators subsequently sent an e-mail to each of the two companies
requesting information in response to specific follow-up questions. Based on their
original responses and the additional information they provided in response to the e-
mail follow-up questions, the companies were then subjected to a second set of
evaluations. However, this time the evaluation criteria were modified by removing
the following question from the original criteria:

       14. Does the product line (vendor) already have a product within the
           ECN? (Implying existing maintenance, historic credibility, past
           experience)

With the removal of this item on the second set of evaluations, Meganet received 95
points and Systems Plus received 90 points. Had this item not been removed from
the evaluation criteria, Systems Plus would have received an additional five points
(for a total of 95) creating a tie with Meganet. Neither set of evaluations contains
any narrative or other supporting information that would explain why the evaluator(s)
assigned given point values to various criteria. There is also no documentation to
explain why item #14 was removed from the second evaluation criteria.

Since neither the evaluation criteria definitions nor the methodology used to
measure the responses against the evaluation criteria were documented, we could
not assess whether the evaluation results were consistent or fair. Accordingly, we
could not determine the validity of the evaluation results contained in DOL’s files nor
the judgment that Meganet was the best or only potential provider.

No Written Justification for Use of a Sole-Source Award

OASAM did not provide us with the documentation required by government-wide
and DOL regulations to justify the award of a contract to Meganet on a sole-source
basis. As a result, there is no assurance that DOL was justified in limiting
competition in meeting its encryption requirement.


U.S. Department of Labor—Office of Inspector General                                 7
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


The FAR provides seven limited exceptions to the award of government contracts
through other than “full and open competition” and describes the content of the
justification required for using each of these exceptions. The ASAM’s letter
approving the use of a sole-source contract cited FAR 6.302-1, which states: “only
one responsible source and no other supplies and services will satisfy agency
requirements,” as the appropriate exception to full and open competition for the
Meganet contract.

FAR 6.302-1(d)(1) states

       Contracts awarded using this authority shall be supported by the
       written justifications and approvals described in 6.303. . . .

FAR Section 6.303-1 states,

       A contracting officer shall not commence negotiations for a sole-source
       contract . . . or award any other contract without providing for full and
       open competition unless the contracting officer . . . justifies, if required
       in FAR 6.302, the use of such action in writing [and] certifies the
       accuracy and completeness of the justification. . . .

Further, DLMS 2, Section 836 (f) 1 states,

       ASAM approval is not the final determination for use of ‘other than full
       and open competition.’ Before a proposed acquisition instrument can
       be awarded with ‘other than full and open competition,’ the justification
       for such a noncompetitive action must be prepared in accordance with
       FAR 6.303. . . . The justification in FAR 6.303 [is] in addition to the
       PRB review and ASAM approval.

DOL’s COTR stated that the sole-source contract was justified because Meganet
submitted the only proposal that offered a COTS product, as required. This
assertion was also contained in the materials provided to the PRB for review.
However, DOL’s contract file for the Meganet contract contained nothing to support
this assertion or to satisfy either the FAR or DLMS requirements. As a result, there
is no way for the OIG or anyone else to review or validate DOL’s reasoning for
pursuing a noncompetitive award to Meganet.

Failure to Disclose an Apparent Conflict of Interest

The former Deputy CIO violated Federal regulations and DOL policy when she
participated in the process that led to a sole-source contract award to Meganet
without disclosing an apparent conflict of interest. It is also of concern to us that,
after the Department became aware of a relationship between the former Deputy
CIO and Meganet’s Corporate Counsel, the matter was not referred to the OIG.


8                                   U.S. Department of Labor—Office of Inspector General
                                                          Report Number 05-05-005-07-720
                                                       Award and Management of Contracts for
                                                  Encryption Software Were Significantly Flawed


In November 2001, the former Deputy CIO initiated a request to award a sole-source
contract to Meganet. As required by DOL’s procedures, she signed form DL1-490,
General Information for the Procurement Review, certifying that she had no present
or prior business, personal, or financial relationship with Meganet. However, the
attorney who was employed as Corporate Counsel for Meganet (and still holds that
position today) had represented the former Deputy CIO in a personal legal matter in
calendar year 2000, prior to Meganet submitting its proposal to sell encryption
software to DOL. In addition, the attorney informed the OIG that, in August and
November 2001, while the Meganet procurement was under way, he reviewed draft
reports relating to the same personal legal matter on behalf of the former Deputy
CIO.3 The former Deputy CIO did not disclose this relationship to DOL procurement
officials.

Further, in October and November of 2000, the former Deputy CIO corresponded
with Meganet’s Corporate Counsel (via e-mail) regarding encryption-related topics.
As part of this correspondence, the former Deputy CIO provided editing suggestions
on a proprietary Meganet document discussing Virtual Matrix Encryption (VME).
The product documentation provided with the encryption software tested by the OIG
(VME Office 2003, Version 2.0.22.12) states that it uses VME.

When interviewed by the OIG, the former Deputy CIO initially denied knowing that
the attorney who represented her in 2000 was associated with Meganet prior to the
contract award. However, after we provided her with copies of the e-mail messages
discussed in the previous paragraph, the former Deputy CIO admitted knowing, prior
to the contract award, of his connection to Meganet. She then explained that this
attorney was not representing her in any personal legal matters at the time of the
contract award; therefore, she did not believe there was any conflict of interest.

According to FAR Subpart 3.101,

        The general rule is to avoid strictly any conflict of interest or even the
        appearance of a conflict of interest in Government-contractor
        relationships.

In addition, DLMS 2, Section 835 states,

        The program official responsible for an ‘other than full and open
        competition’ request or a request for contract advisory and assistance
        services shall, . . . explain any past or existing business or personal
        relationships with the proposed recipient or certify that none exist.

Further, 5 CFR 2635.502(a) states,


3
 This attorney also represented the former Deputy CIO in a separate personal legal matter in
calendar year 2003, after the Meganet contract award.

U.S. Department of Labor—Office of Inspector General                                           9
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

        Where an employee knows that a particular matter involving specific
        parties is likely to have a direct and predictable effect on the financial
        interest of a member of his household, or knows that a person with
        whom he has a covered relationship is or represents a party to such
        matter, and where the employee determines that the circumstances
        would cause a reasonable person with knowledge of the relevant facts
        to question his impartiality in the matter, the employee should not
        participate in the matter unless he has informed the agency designee
        of the appearance problem and received authorization from the agency
        designee in accordance with paragraph (d) of this section.

The former Deputy CIO had an apparent conflict of interest, based on having
employed Meganet’s Corporate Counsel as her personal attorney before the
contract award. Corresponding with Meganet’s Corporate Counsel and providing
technical editing advice on encryption-related topics shortly before DOL began its
search for encryption products, further brings into question her ability to be unbiased
in the contract award process. This apparent conflict of interest is of greater concern
in light of the sole-source nature of the contract award. Under these circumstances,
based on Section 835 of DLMS 2 and 5 CFR 2635.502(a), the former Deputy CIO’s
prior attorney-client relationship with an attorney, who was employed by and
represented Meganet throughout the entire contract award process, precluded the
former Deputy CIO from participating in the Meganet procurement unless she had
disclosed the relationship to appropriate DOL officials and received prior approval to
participate as provided in 5 CFR 2635.502(d). The former Deputy CIO failed to
disclose the relationship or seek approval of her participation in the Meganet matter.

An additional concern is raised by the fact that the ASAM’s August 4, 2003
memorandum referring the Meganet contract to the IG for review, while raising
several concerns about the appropriateness of the sole source contract award to
Meganet, did not include any reference to the relationship between the former
Deputy CIO and Meganet’s Corporate Counsel. In an e-mail sent to five SOL
attorneys on July 31, 2003, the ASAM’s Special Assistant states:

        I have crafted the attached referral to the oig (we did not feel it was
        appropriate to mention the apparent conflict of interest involving [the
        Meganet Corporate Counsel’s] representation of [the former Deputy
        CIO] and meganet).

DLMS 8, Audits and Investigations, Paragraph 713 states

     (a) All DOL employees are responsible for: (1) Promptly reporting . . . to
         their supervisor or the OIG, information that they reasonably believe
         indicates wrongdoing. . . .




10                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

   (b) DOL Agency Heads are responsible for: (1) Ensuring that all
       allegations of wrongdoing received by supervisors or managers within
       the Agency are reported promptly to the OIG.

DLMS 8, Paragraph 704(a)(6) defines “wrongdoing” as including “conflict of
interest.”

When interviewed by the OIG in late 2004, two senior SOL attorneys stated that they
were aware of the relationship between the former Deputy CIO and Meganet’s
Corporate Counsel. Both attorneys stated that there was not sufficient information to
establish that a conflict of interest existed. Therefore, they did not believe that the
matter required referral to the OIG pursuant to DLMS 8. Despite their conclusion,
some concerns remained about this relationship, because the attorneys also stated
that it was their understanding that the information about the relationship would be
informally communicated to the OIG in some fashion. However, this informal
communication never occurred.

The OIG believes that the information available to the Department provided a
reasonable basis to suspect possible wrongdoing and, therefore, should have
been referred to the OIG pursuant to DLMS 8.

Possible Bias in Preparing the Statement of Work

The COTR stated that she could not recall the extent of her involvement in writing
the SOW used to solicit proposals. However, the OIG obtained an e-mail sent by
the COTR to the former Deputy CIO on June 5, 2001, stating, “I actually wrote [the
Statement of Work] by taking it ou[t] of the Meganet book you gave me.” When
shown this e-mail, the COTR stated that the “Meganet book” was a publicly available
brochure that she probably only used to obtain definitions of terms with which she
was unfamiliar. On June 14, 2001, the completed SOW was mailed to Meganet and
seven other small businesses requesting capability statements. The possibility that
the SOW was based on a Meganet product brochure, or other Meganet materials,
raises a serious concern that the SOW may have been prepared in a manner that
unfairly favored Meganet’s products.

Inadequate Separation of Duties Facilitated Noncompliance

Currently in DOL, overall responsibility for the IT function and the procurement
function are both delegated to one individual – the ASAM. This creates an
organizational conflict of interest whenever a procurement action involves IT
products or services. Similarly, an organizational conflict of interest occurs
whenever a procurement action is undertaken in support of OASAM’s operational
mission. OMB Circular A-123, Management Accountability and Control, states:




U.S. Department of Labor—Office of Inspector General                                11
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

       Key duties and responsibilities in authorizing, processing, recording,
       and reviewing official agency transactions should be separated among
       individuals.

The ASAM has been delegated procurement and contracting authority in Secretary’s
Order 4-76. Specifically, the ASAM is responsible for prescribing procurement
policies and procedures, procuring property and services, and resolving questions
and interpretations of Federal Procurement Regulations.

In addition, the ASAM serves as DOL’s CIO. The Clinger-Cohen Act (40 U.S.C.
11315) established the position of CIO in each Federal department. In DOL, the
CIO reports directly to the Secretary and Deputy Secretary and “has [Information
Resource Management] duties as his or her primary duty . . . [emphasis added]”
(Secretary’s Order 3-2003). Currently, this dual role not only conflicts with the
requirement that IRM duties be the primary duty of the CIO, but it also creates a
potential conflict whenever DOL purchases IT products and services. The lack of
adequate separation of duties increases the risk that operational needs and desires
will override sound procurement practices. Likewise, the same organizational
conflict of interest exists whenever a procurement action is taken to meet the
operational needs of any OASAM component.


                                       The scope of the original contract with
 Finding 2 - Scope of the              Meganet, effective February 1, 2002,
 Meganet Contract (and                 included a second product not in the proposal
 Subsequent Modifications)             presented to DOL’s PRB on November 26,
 Varied Significantly from             2001, and approved by the ASAM on
 the Proposal Presented to             December 5, 2001, as a sole-source
                                       procurement. The contract was modified on
 the PRB for Consideration             June 6, 2002, to add a third product and
                                       adjust the quantities available for purchase
without further PRB review or approval. Without PRB review, there is no assurance
that Meganet was the only available provider of these additional products.

Original Contract Terms Exceeded the Scope of the Proposal Approved by the
PRB

On November 15, 2001, the former Deputy CIO sent a Procurement Review
package to the ASAM requesting the use of a sole-source contract to obtain “a
product and service for the encryption process needed for the Employee Computer
Network [ECN].” The ASAM, in turn, submitted the proposal to the PRB to review
and make a recommendation regarding the appropriateness of awarding a
sole-source contract. The request described plans to “obtain software necessary to
perform file level encryption, to provide the installation of the software, and to
provide the maintenance on an as needed basis” for the ECN (approximately 1,300
computers). The estimated value of the contract was $950,000. On


12                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

November 26, 2001, the PRB recommended that the ASAM approve a sole-source
contract to Meganet. A memorandum, dated December 5, 2001, from the ASAM to
the Deputy CIO, gave approval to pursue a sole-source contract to Meganet.

A DOL contracting officer entered into a sole-source contract with Meganet, effective
February 1, 2002, to purchase (1) a file level encryption application, (2) a digital
signature application, and (3) related maintenance services. The minimum quantity
to be purchased for each of the three items was 4,800 with a maximum purchase
quantity of 18,000 each. Based on the negotiated fixed price per item, the contract
had a total value between $1.08 million and $4.03 million over the 3-year term of the
contract. The inclusion of a second product (i.e., digital signature application) and
the increased quantities (from 1,300 to potentially 18,000) exceeded the proposal
presented to the PRB for consideration. As a result, the dollar value of the contract
was potentially four times the estimate presented to the PRB.

According to the ASAM, it was December 2002 when he and the PRB became
aware of the variance between the contract proposal submitted for PRB review in
November 2001 and the terms of the actual contract awarded in February 2002. In
December 2002, the former Deputy CIO had forwarded a request to the PRB to
increase the maximum product quantities allowed in the existing contract. The
increases were intended to allow the United States Department of Agriculture
(USDA) to purchase Meganet products under the DOL contract. When the ASAM
noted the difference between the existing contract and the proposal originally
submitted to the PRB in 2001, he withdrew the new request for PRB consideration.

In November 2001, when the original Meganet contract proposal was presented for
PRB review, DLMS 2, Section 836 (a) stated,

       It is the policy of DOL that all requests to award acquisition or
       assistance instruments, or modifications to acquisitions or assistance
       instruments are subject to review by the PRB, which recommends
       approval or disapproval to the Assistant Secretary.

At the time of the Meganet contract award, DLMS 2 did not address the PRB’s
authority to establish scope limitations (e.g., dollar amount, duration) on a contract.
In the case of the Meganet contract, the PRB’s function was only to make a
recommendation regarding the request to award a contract on a sole-source basis.

The OPS Director, in a memorandum to the PRB, stated that he considered that the
PRB had determined Meganet was the sole-source for encryption products and
services for the ECN, and that the $950,000 presented to the PRB was an estimate,
not a cap. Therefore, the contracting officer did not feel bound by any dollar limit
identified by the PRB. The OPS Director also stated in the memorandum, however,
that in hindsight, the PRB should have been informed that the negotiated contract
price considerably exceeded the estimated amount in the PRB’s approval
memorandum. The contract’s COTR stated that the PRB was informed that the cost
of the contract was an estimate when the proposal was discussed. The PRB did not

U.S. Department of Labor—Office of Inspector General                                13
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

indicate that $950,000 was a contract ceiling nor that the COTR needed to return to
the PRB for additional approval if a higher cost was negotiated. Therefore, neither
OPS nor the COTR believed it was necessary to go back to the PRB for approval at
the time the contract was entered into and modified. However, the addition of a new
product to the planned contract would constitute a modification that should have
been subject to PRB review. In the OIG’s judgment, the differences could have
been identified if DOL’s process had required reconciliation between the proposal
reviewed by the PRB and the actual contract terms prior to the contract award.

The ASAM indicated that as a result of the Meganet contract, revisions were made
to DLMS 2 in May 2003. Language was added to allow dollar and term limits to be
established on contracts reviewed by the PRB. DLMS 2, Section 836 I (3) was
amended to state:

       If approved, the ASAM’s decision memorandum will specify the
       approved project duration and funding, as appropriate. A new request
       to the PRB will be required if an Agency Head wishes to exceed either
       the approved funding amount by 10 percent (or other percent as
       specified by the ASAM) or extend project duration beyond the
       approved period.

The new policy still does not specify a method for reconciling the contract terms
reviewed by the PRB and those included in the final contract award.

Meganet Contract Scope Modified After Award Without PRB Review

On June 6, 2002, DOL modified the original Meganet contract. The maximum
quantities for the original two products -- file encryption (VME 2000) and digital
signature (VME Sign) -- were reduced from 18,000 to 10,000, and a third product for
e-mail encryption (VME Secure Mail) was added along with related licensing and
administrative support services. The minimum purchase quantity of this new product
was 4,800 units with a maximum purchase quantity of 10,000 units. The COTR and
OPS believed it was not necessary to obtain approval from the PRB for this change
because the total dollar value of the original contract had not increased.

The ASAM and some members of the PRB believe that the original contract of
February 2002 and the modification in June 2002 should have been resubmitted to
the PRB for review because of changes in the scope of the contract. As previously
cited, DLMS 2 Section 836 (a) required that modifications were “subject to review by
the PRB.” These changes should not have been made without PRB review and the
ASAM’s approval. In addition, DOL’s desire to purchase the second and third
products was never announced in the marketplace. Therefore, there is no way to
determine whether other potential contractors (including small businesses) could
have competed with Meganet to fill these additional needs.




14                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                       Award and Management of Contracts for
                                                  Encryption Software Were Significantly Flawed



OBJECTIVE: Did DOL provide adequate justification for
           not using the products purchased through
           the Meganet contract and, if so, did DOL
           adequately justify not attempting to recover
           the $3.8 million paid to Meganet?
No. The two reasons given by DOL for not using the Meganet products were not
supported. Although Meganet’s products were not certified by the National Institute
of Standards and Technology (NIST) as complying with Federal Information
Processing Standard (FIPS) 140, Meganet was in the process of obtaining the
required NIST certification. DOL provided no documented test results to support
their assertion that the products would not function in DOL’s environment. OIG’s
testing indicated that the VME 2003 product provided to OIG from DOL functioned in
OIG’s test environment designed to represent the environment described in the
contract. The Deputy Assistant Secretary for Administration and Management
(DASAM) provided inadequate oversight to scrutinize and resolve conflicting
information about the ability to implement the Meganet products.


                                          DOL’s decision not to install the products
    Finding 3 - DOL’s Reasons             purchased under the Meganet contract was
    for Deciding Not to Use the           not supported. The CIO’s Special Assistant
    Products Purchased from               raised concerns about the viability of the
    Meganet Were Not                      Meganet products after being hired by DOL
    Supported                             in mid-December 2002. This was 10 months
                                          after awarding the contract and after DOL
                                          had received and paid for more than
$3 million of products under the contract. In late December 2002, as part of an
overall PKI acquisition plan, DOL entered into an agreement to lease Entrust
encryption products (a GSA Schedule vendor) through a contract with Videla
International Corporation, a re-seller of Entrust products.4 Some of these Entrust
products duplicated the functionality of the previously purchased Meganet products.

The ASAM and members of his staff stated to OIG auditors that the Meganet
products did not perform as expected. Specifically, they cited two reasons for
abandoning implementation of the Meganet products: (1) the products did not meet
mandatory certification requirements and (2) the products would not function within
DOL’s proposed PKI structure. However, they provided no documentation to
support these assertions. On September 29, 2003, the current Deputy CIO sent
Meganet a letter stating that DOL did not intend to use any of the products
purchased from Meganet.

4
 Other than determining that Entrust products were available from the GSA schedule, our audit did
not focus on determining whether this procurement complied with the FAR.

U.S. Department of Labor—Office of Inspector General                                         15
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


In spite of the asserted product deficiencies, and based on advice from an SOL
attorney, DOL decided not to pursue recovery of any of the funds paid to Meganet.
In an interview with OIG auditors, the SOL attorney characterized the contract terms
as “murky” and could not conclude that Meganet had not met its contract obligations.

Product Deficiencies Alleged by DOL

According to the contract COTR, ITC staff did not indicate any major problems with
the Meganet products ordered. However, in December 2002, DOL contracted with
Videla to obtain Entrust encryption software as part of an overall PKI solution plan.
According to the COTR, when she questioned the apparent duplication of the
products in the Meganet and Videla contracts, the CIO’s Special Assistant and the
ASAM’s Special Assistant expressed concerns about installing the Meganet
products. Specifically, the Special Assistants questioned whether Meganet’s
products were properly certified by NIST for compliance with FIPS 140. The COTR
also indicated that the Special Assistants stated that Meganet’s products would not
work with DOL’s proposed PKI unless some information technology issues were
resolved.

The former Deputy CIO stated that, to her knowledge, the CIO’s Special Assistant
was the only individual that had ever raised concerns about whether the Meganet
products worked. In fact, according to the former Deputy CIO, prior to the CIO’s
Special Assistant’s involvement (December 2002), the ITC had thoroughly and
successfully tested and was preparing to deploy the Meganet software. They were
waiting only for DOL’s PKI to be completed and operational.

By March of 2003, DOL had ordered and received the maximum quantities of all
products under the Meganet contract at a total cost of $3.8 million. However, in a
May 8, 2003 letter, DOL rejected payment of the final invoice from Meganet in the
amount of $664,300. The letter cited five specific deficiencies as the basis for
refusing payment:

     1)   the cryptographic module was not validated to comply with NIST FIPS;
     2)   the encryption tool did not implement the “3DES” encryption method”
     3)   the Meganet product was not fully interoperable with DOL’s PKI;
     4)   the digital signature module was not certified to comply with NIST FIPS; and
     5)   the digital signature tool did not implement the “DSA” digital signature
          method.

According to the letter, each of these items was required in the “original statement of
work.”

The ASAM’s office led a series of meetings (March 28, 2003, April 10, 2003, and
May 15, 2003) to discuss concerns about the Meganet products, including the
specific deficiencies listed in the May 8, 2003 letter. DOL officials (including


16                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                      Award and Management of Contracts for
                                                 Encryption Software Were Significantly Flawed

representatives from the ITC, OPS, and SOL) participated in some or all of these
meetings along with Meganet representatives.

Meganet and DOL officials differed in their assessments of the results of these
meetings. According to Meganet’s Corporate Counsel, Meganet staff successfully
responded to all operational concerns raised by DOL at these meetings. To support
this conclusion, he pointed out that DOL rescinded its earlier rejection and paid the
final invoice in full (plus interest) on June 2, 2003. However, the ASAM stated that
the parties were unable to resolve the deficiency concerns to DOL’s satisfaction. He
explained that payment of the final invoice was made because SOL staff believed
that DOL’s failure to reject earlier shipments of the Meganet products precluded it
from filing for breach of the contract. On September 29, 2003, the current Deputy
CIO sent Meganet a letter stating that DOL did not intend to use any of the products
purchased or order any further products through the contract with Meganet.

Based on the information available for our review, the five deficiencies cited in the
May 8, 2003 letter do not provide a sound basis for abandoning DOL’s $3.8 million
investment in the Meganet products that had been purchased. The SOW contained
in the awarded contract did not state a requirement for the “3DES” encryption
method (deficiency #2). Although the SOW provided to vendors with DOL’s request
for capability statements did contain this requirement, it was unexplainably omitted
from the contract SOW. We found no testing results or other documentation to
support DOL’s assertion that the “3DES” method was absent from the Meganet
products.

The language in the contract SOW did not specifically require use of the “DSA”
digital signature method (deficiency #5). Instead, it required that the product
“support Digital Signatures as follows in IAW [in accordance with] FIPS PUB 186-1.”
FIPS PUB 186-1 (December 15, 1998) identifies either the Digital Signature
Algorithm (DSA) or another algorithm (RSA) as appropriate and specifically states
that both do not have to be implemented.5 According to Meganet officials, their
product included RSA services. Again, DOL provided no documentation to
demonstrate that the products lacked this capability.

The contract SOW did require that the Meganet products demonstrate “integration
[with] the agency’s standard PKI solution . . .” (deficiency #3). However, DOL
provided no documentation or other support for its claim that the Meganet products
did not operate with its PKI solution. In fact, since DOL only began defining its PKI
Functional Requirements in May 2002 and is still running its proposed PKI solution
in a limited pilot test, it is unclear how DOL would have determined the lack of
performance of the Meganet products against its PKI environment.



5
 Although cited in the contract SOW, at the time of the contract award FIPS 186-1 was not the
current standard. FIPS 186-2, effective July 27, 2000, superseded FIPS 186-1 and allowed the use
of any of three different algorithms in digital signature products – DSA, RSA, or ECDSA.

U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

Although we agree that FIPS establish certain mandatory standards for all
cryptographic and digital signature modules used by federal agencies, the contract
SOW contains only references to FIPS 180-1 and 186-1. We found no language in
the contract SOW that identifies other pertinent standards (e.g., FIPS 140-2) or
specifies the need for NIST certification (deficiencies #1 and #4). To avoid any
ambiguity, the contract should have identified all requirements either through specific
language or specific citation to other federal laws or regulations. As with other
deficiencies cited by DOL, it provided no evidence or documentation to support its
assertion of non-compliance.

DOL assertions that Meganet’s products did not possess required NIST certifications
are discussed in detail in the following section.

NIST Certification Was Pending and Likely to Be Approved

The CIO’s Special Assistant stated that the Meganet software was not certified by
NIST as complying with FIPS 140, Security Requirements for Cryptographic
Modules. FIPS 140 is a technical standard that any cryptographic product must
meet before it can be placed on a Federal Government information technology
system. At the time of the contract award, Meganet’s products did not have their
own NIST certification. However, when DOL officials raised this issue, Infogard, a
laboratory accredited by NIST to perform cryptographic validation testing, wrote a
letter to the former Deputy CIO on Meganet’s behalf. The March 25, 2003, letter
stated that Infogard was in the process of testing Meganet’s encryption product and
planned to recommend that Meganet’s product be issued FIPS 140 certification.
The letter further stated that Infogard did not “anticipate any critical issues that would
prevent [Meganet’s products] from being validated by NIST.” In addition, Meganet
argued that it met the certification requirement since its product incorporated
(without change) a Microsoft module that did have NIST certification. It had provided
DOL with correspondence from a NIST official supporting this interpretation. On
January 27, 2005, Meganet received NIST Certificate #505 validating that its VME
Crypto Engine complied with FIPS 140-2.

The CIO’s Special Assistant stated that the absence of this certification prevented
DOL from using the Meganet products. However, DOL was informed that the
required NIST certification was in process and likely to be approved. DOL also has
reason to believe that the NIST certification requirements had been met through the
incorporation of the Microsoft module. Since DOL already had invested $3.8 million
in the purchase of these products, it seems prudent that it would have worked with
Meganet to overcome this certification concern rather than immediately abandoning
the Meganet products and services based on this issue.

Meganet Products Could Operate in DOL’s System Environment at the Time of
the Contract Award




18                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

The CIO’s Special Assistant and the ASAM’s Special Assistant on the one hand, and
ITC officials on the other, provided conflicting opinions about whether the Meganet
products did or did not function properly in DOL’s IT environment. In addition,
Meganet officials claimed that they had developed applications and demonstrated
their product’s operability to DOL technical staff. However, we found no
documentation to support any of these assertions. Specifically, we found no
documentation that DOL had tested the Meganet products at all. Subsequently, OIG
technical staff were able to demonstrate the functionality of the Meganet software in
a test environment that represented the DOL environment as described in the
contract.

The CIO’s Special Assistant stated that Meganet’s products were not compatible
with DOL’s needs and required modifications because they were not based on
“standard modules.” The CIO’s Special Assistant further stated that Meganet
officials claimed that their product code was proprietary and refused to reveal it to
DOL. According to the CIO’s Special Assistant, Meganet attempted to demonstrate
its product by incorporating Microsoft modules that were available at no charge to
make the Meganet product compatible with DOL’s proposed PKI. The CIO’s Special
Assistant said the product still did not work. We were not provided with any
documentation or other corroborating evidence to support the assertions by the
CIO’s Special Assistant.

Section C.3.1 Task #1 (file level encryption application testing, demonstration, and
evaluation) of the contract with Meganet states:

       The Contractor shall conduct integration testing and demonstration of
       the application or provide the proposed application directly to the
       technical point of contact listed in this SOW. The application testing,
       demonstration, and evaluation shall be performed in the Government’s
       on-site Test, Evaluation and Certification Center (TECC) located in
       room N1301, Francis Perkins Building. The application must
       demonstrate successful integration and operation on the DOL standard
       Windows NT workstation before being accepted.

Both ITC staff and Meganet officials stated that testing of the Meganet products was
performed. However, no documentation of these tests or their results was found.
The testing reportedly consisted of a demonstration of the products by Meganet staff
on a computer in the DOL lab. Meganet personnel opened, closed, encrypted, and
decrypted files. Meganet personnel discussed how the products functioned, and
DOL personnel explained how the product should operate in the DOL environment.
It is not clear which version of software was tested, but Windows 2000 was running
in the lab at the time the software was demonstrated. ITC and Meganet officials
stated that they believe the product would have worked in DOL’s environment.

The former Deputy CIO stated that DOL had conducted formal, thorough testing of
the Meganet products and that she was aware of no reasons why the products


U.S. Department of Labor—Office of Inspector General                                19
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

would not have performed satisfactorily in DOL’s environment. She also stated that
the test results had been documented as required. Specifically, she recalled that the
file of test documentation was substantial in size and included the test plan (7-10
pages), printouts of before and after “screen shots,” and event logs.

Meganet officials stated that their staff had worked with DOL ITC staff to test the
Meganet encryption products and make sure they would run in the proposed DOL
PKI system environment. According to Meganet’s Chief Executive Officer, Meganet
developed an application to test their products in a stand-alone environment. They
also developed four applications that simulated PKI to test their products, since
DOL’s PKI was not in place. Although Meganet officials claim that these tests
demonstrated that their products worked in DOL’s environment, they also could not
provide any documented test results to support their assertions.

In an effort to resolve these conflicting assertions, OIG obtained copies of the
product from DOL for testing. On November 9, 2004, OIG technical staff, assisted
by Meganet personnel, was able to demonstrate the functionality of Meganet’s VME
Office 2003 product. The OIG was able to determine that the Meganet VME 2003
product functioned in a networked e-mail test environment as described in the
contract. OIG was able to (a) successfully install the Meganet software on three
laboratory computers, one running Windows NT 4.0 Server software and the other
two running Windows NT 4.0 Workstation software; (b) demonstrate functionality of
the VME Office 2003 on the three computers; and (c) successfully test the
encryption and decryption of e-mails transmitted through the OIG Computer Lab
Microsoft Exchange Server.

OASAM’s decision not to use the Meganet products because the products could not
function in DOL’s IT environment at the time of the contract is not supported.

Inadequate Supervision and Oversight

The DASAM was aware that the former Deputy CIO had, prior to her departure from
DOL in March 2003, argued that the Meganet products worked and could be
implemented. Nonetheless, when the issue of formally severing DOL’s relationship
with Meganet was raised with the DASAM in September 2003, he did not question
the assertions by other OASAM staff that the Meganet products neither worked nor
had adequate certification to be implemented. Nor did he raise these issues with the
ASAM; instead, he allowed the action to proceed. Overall, although the DASAM
was the direct supervisor of the former, current, and interim Deputy CIOs throughout
the time period addressed in this report, there is no indication that the DASAM took
an active supervisory role in the process of awarding the contract to Meganet,
modifying the contract, or otherwise managing the contract




20                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                   Award and Management of Contracts for
                                              Encryption Software Were Significantly Flawed

OBJECTIVE: What is the current status of DOL’s File and
           e-mail Encryption Capability?
Although DOL has spent $5.4 million on encryption products, maintenance and
support services, and PKI related hardware from two contractors (Meganet and
Videla), there is no file or e-mail encryption capability widely implemented
throughout DOL because DOL’s PKI, an essential part of the overall security
solution, has not yet been widely deployed. A PKI Pilot Project, involving a limited
number of DOL users, is ongoing. Department-wide implementation of this
capability may not occur until the end of Fiscal Year (FY) 2005.


                                            DOL has obtained large quantities of
 Finding 4 - DOL Has Spent                  encryption software from two different
 Millions of Dollars on                     vendors, but has not yet deployed the
 Encryption Software and                    products. DOL abandoned the Meganet
 Other Products That Are                    encryption software, purchased at a cost of
                                            $3.8 million, and has no plans to install these
 Not Being Used
                                            products. DOL has also entered into an
                                            agreement to lease Entrust encryption
software and PKI related hardware at a total cost of $2.4 million over 3 years. As of
December 2004, DOL had paid $1.6 million of this total. However, the Entrust
encryption software purportedly cannot be deployed department-wide because the
related PKI is still in a pilot status. As a result, DOL is not benefiting from the
$5.4 million it has spent.

Encryption Software Purchases

DOL has obtained thousands of licenses for encryption software since February
2002, although it did not have a fully deployed PKI framework in which to utilize
these products. From February 2002 through March 2003, DOL purchased 10,000
units each of file encryption, e-mail encryption, and digital signature software from
Meganet. Including the support services purchased with these products, DOL paid
Meganet $3.8 million. In December 2002, it began leasing Entrust encryption
products through an agreement with Videla. From December 2002 through
December 2004, DOL obtained 40,000 licenses to use Entrust’s e-mail encryption
and digital signature software. Including the PKI related hardware and maintenance
services purchased with these products, DOL had paid Videla $1.6 million.

Status of DOL’s PKI Solution Pilot

Before DOL can deploy and benefit from all the encryption products it has
purchased, it needs a fully deployed PKI. However, DOL did not begin its PKI
Solution Pilot until April 1, 2004, more than 2 years after purchasing its initial
quantity of encryption software from Meganet and more than 15 months after
beginning to procure Entrust encryption products from Videla.

U.S. Department of Labor—Office of Inspector General                                 21
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


Based on information provided by DOL management, 52 employees, including 7
OIG employees, are participating in the pilot. The objective of the pilot is to
demonstrate PKI capabilities in a specific application and provide an opportunity for
users and administrators to gain actual experience using the PKI. Lessons learned
and other data were scheduled to be collected and documented through
December 31, 2004. Deployment of the PKI solution includes the approval and
publication of a regulation in the Code of Federal Regulations. Therefore, DOL
estimates that full deployment may not be completed until the end of FY 2005.

Nevertheless, DOL had obtained licenses for concurrent use of 40,000 Entrust PKI
certificates, e-mail encryption and digital signature software to enable use of these
certificates, and related hardware and maintenance from Videla at a cost, as of
December 2004, of $1.6 million. When combined with the $3.8 million of products
purchased through the Meganet contract, DOL has expended a total of $5.4 million
on encryption products and PKI hardware, which are currently not widely deployed.

In addition, since DOL originally procured the Entrust products through the Videla
contract, changes in the Federal PKI architecture have reduced the number of
licenses and certificates required by DOL. DOL is working with Videla to try and
transfer 15,000 licenses and certificates to another Federal agency.

Given the ongoing nature of DOL’s PKI Solution Pilot, it was unreasonable for DOL
to have obtained large quantities of encryption licenses and certificates. While
limited quantities could be procured for use in the pilot effort, large-scale obligations
should have been delayed until the PKI solution was complete and the encryption
software was widely deployable.




22                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed


Overall Audit Conclusion
The Meganet contract was not properly awarded, modified, or managed because of
a lack of organizational separation of duties, inadequate oversight, and insufficient
internal controls. Furthermore, individuals knowingly made decisions and took
actions that violated Government regulations and DOL policies and may not have
been in the best operating or financial interests of DOL. As a result, (a) a contract
may have been improperly awarded on a sole-source basis, (b) $3.8 million in
Meganet products have gone unused without adequate justification, and (c) DOL
spent an additional $1.6 million (as of December 2004) on Entrust products some of
which satisfy the same technical requirement as the unused Meganet products. The
OIG believes that until procurement and programmatic responsibilities are properly
separated and effective controls put in place, DOL continues to be at risk for the
wasteful and abusive practices evident in its handling of the Meganet contract.




U.S. Department of Labor—Office of Inspector General                                23
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


Recommendations
We recommend that the Deputy Secretary of Labor:

          1. Remove the procurement function from OASAM and create an
             independent Acquisition Office whose Director would (a) supervise all
             DOL procurement staff and (b) report directly to the Deputy Secretary.

          2. Establish a process for an independent review and approval of
             decisions to (a) abandon or terminate active contracts or (b) not use
             products or services already purchased. This review and approval
             should be made by an individual or group independent of the DOL
             agency(ies) involved in the purchase or use of the product or service.

          3. Remind all DOL employees of their responsibility to immediately report
             reasonable suspicions of wrongdoing to the OIG.

We also recommend that the Deputy Secretary instruct the ASAM to:

          4. Develop and implement procedures to ensure that all required
             preaward activities (e.g., TRB review, proposal evaluation, etc.) are
             completed and documented prior to execution of a final contract.

          5. Emphasize conflict of interest laws and regulations to all employees
             during FY 2005 annual ethics training.

          6. Develop and implement a procedure to reconcile the terms of PRB
             approval with the related contract terms before final contract execution.

          7. Direct ITC staff to execute and document the results of a formal test of
             both the Meganet and Entrust products and determine whether and
             how to use them in meeting DOL’s overall encryption needs or
             otherwise obtain value to DOL for the costs incurred.

          8. Develop a policy and implement controls to limit the quantities of
             information technology products that are purchased until there is
             documented evidence that the products are deployable in DOL’s
             system environment.

DOL RESPONSE

The OIG provided a draft of this report to DOL management for review and
comment. The Deputy Secretary’s written response to the draft report, dated
March 18, 2005, is summarized below and presented in its entirety in Appendix E.
As a result of the written response and separate discussions with DOL officials after


24                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

we had issued the draft report, we made technical clarifications in the report where
appropriate.

In its written response, DOL management stated that the OIG report was thorough,
confirmed their concerns about the Meganet contract, and offered constructive
recommendations to prevent future contracting problems. They committed to
continuing to assess and take appropriate actions to enhance changes that they
have begun in the contracting program. Specifically, DOL management addressed
each recommendation as follows:

Recommendation 1 – The Deputy Secretary agreed to carefully weigh the OIG’s
rationale for recommending that the procurement function be organizationally
separated from OASAM in relation to the procedural and personnel changes that
OASAM has already instituted.

Recommendation 2 – The Deputy Secretary concurred in principle with this
recommendation and directed the ASAM to (a) revise the Department’s procurement
policies to ensure an independent review prior to the termination of substantial or
sensitive contracts and (b) set an appropriate threshold for reviewing decisions not
to use products or services that have already been purchased.

Recommendations 3 and 5 – The Deputy Secretary stated that the Office of the
Solicitor discusses how to avoid conflicts of interest in its required ethics seminars.
To implement our recommendation, he agreed that SOL’s 2005 ethics training would
continue to address an employee’s responsibility to report wrongdoing to the OIG
and the rules governing conflict of interest. Further, he stated that appropriate
reminders would be sent to employees.

Recommendations 4, 6, and 8 – The Deputy Secretary stated that the Department
had already taken steps to substantially address these recommendations by
(a) revising DOL policy on sole-source contracts to require approval of the Chief
Acquisition Officer if actual spending exceeded the dollar amount approved by the
PRB by more than 10 percent or the contract term exceeded the duration approved
by the PRB; (b) limiting, through the information technology governance structure,
purchases of IT products prior to documenting that the products are deployable in
the Department’s system environment; and (c) reinforcing its policy requiring that
preaward activities be completed and documented prior to execution of a final
contract. He further stated that the Department had made significant changes
among the personnel most closely involved in the Meganet procurement, including
the Deputy CIO, IT staff that worked with the Deputy CIO, and the senior
procurement official.

Recommendation 7 – The Deputy Secretary summarized a perceived contradiction
within the report’s findings. He stated that while the report criticizes the
Department’s award of a contract to Meganet, it also questions the Department’s
decision to set aside the contact and “appears to explicitly endorse Meganet’s


U.S. Department of Labor—Office of Inspector General                                25
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

technical capabilities – relying heavily on representations made by the former
Deputy CIO and top Meganet officials.” He further questioned the OIG’s testing of
the Meganet products “assisted by Meganet personnel.” Finally, he argued it would
be doubtful that implementing the OIG’s recommendation to complete a formal test
of the Meganet products would provide significant value and benefit to the
Department. Citing recently issued requirements from the Office of Management
and Budget (Memorandum M-05-05, dated December 20, 2004), the Deputy
Secretary stated that all Federal agencies are now required to use one of three
approved providers for PKI services. He stated that none of the three currently
approved providers uses Meganet’s encryption software.

OIG CONCLUSION

Based on the information contained in the Deputy Secretary’s written response to
the draft report, Recommendation 3 is resolved. To resolve each of the other
recommendations, we need a more complete and detailed description of planned
corrective actions. Our specific assessment of the Deputy Secretary’s response to
each recommendation follows.

Recommendation 1 – The Deputy Secretary committed to “carefully weigh” the
reasons for this recommendation. This recommendation is unresolved pending a
final decision regarding removal of the procurement function from OASAM.

Recommendation 2 – The stated action does not address both aspects of this
recommendation. The ASAM has been directed to revise the Department’s policy to
ensure a review for “termination of substantial or otherwise sensitive contracts.”
However, the response does not include a corrective action for reviewing decisions
to not use products or services already purchased. This recommendation is
unresolved pending an action plan related to the review of decisions not to use
products or services already purchased.

Recommendations 3 – The Office of the Solicitor will address employees’
responsibility to report wrongdoing to the OIG in the required 2005 ethics training. In
addition, appropriate reminders will be sent to employees. This recommendation is
resolved and will be closed based on the Department providing evidence that these
actions have occurred.

Recommendation 4 – The Department has “reinforced its policy requiring that pre-
award activities are completed and documented prior to execution of any final
procurement contract.” However this recommendation is unresolved until (a) the
OIG receives specific information on how this reinforcement was accomplished and
(b) the Department defines procedures or internal controls to assure that program
and procurement personnel comply with policy requirements. As an example, the
Department might consider implementing a checklist of preaward requirements that
would be signed off by a senior procurement official prior to final contract execution.



26                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

Recommendation 5 – The Department stated that the SOL already discusses how to
avoid conflicts of interest in its annual ethics seminars and will continue to address
the subject in its 2005 training. However, this recommendation is unresolved
pending more specific information describing how SOL will emphasize the conflict of
interest laws and regulations in this year’s training.

Recommendation 6 – The Department has not developed and implemented
procedures to reconcile the terms of PRB approval with the related contract terms
before final contract. This recommendation is unresolved until the Department
defines procedures or internal controls to assure that program and procurement
personnel comply with any contract limits recommended by the PRB and established
by the ASAM.

Recommendation 7 – We see no conflict in our report. We reported that the
Department’s procedures were flawed and poorly documented. Therefore, its
actions did not assure that it made the appropriate decisions in awarding the
contract to Meganet and later abandoning the products purchased. The OIG does
not endorse the Meganet products or assert that they can satisfy the Department’s
requirements. We recommend that the Department make this determination through
formal, documented testing of the Meganet products. If this testing determines that
the Meganet products cannot be used to benefit the Department, the
recommendation further requests an action plan to identify possible options to
recover some or all of the investment in these products.

We disagree with the Department’s position that the December 20, 2004, OMB
directive eliminates the possibility of using the Meganet products. First, a technical
supplement, issued by the General Services Administration on March 3, 2005, states
that compliance with the OMB directive can be achieved in either of two ways: (1)
by cross-certifying an agency’s certification authority with the Federal Bridge or (2)
by purchasing PKI services from one of the approved Shared Service Providers.
Second, there are encryption needs that do not rely on PKI (e.g., file encryption). In
fact, this was the originally stated requirement of the Meganet procurement action.
Finally, PKI services do not utilize encryption software; rather encryption software
utilizes PKI services. Since Meganet’s products currently work with at least one of
the three shared service providers available through the General Services
Administration program (Verisign), it may be possible to use one or more of the
Meganet products purchased and still comply with the OMB directive.

This recommendation is unresolved pending the Department’s (a) plan to formally
test the Meganet and Entrust products, (b) determination of whether and how best to
use all encryption products purchased to date, and (c) pursuit of options to obtain
value for products purchased but not deployed.




U.S. Department of Labor—Office of Inspector General                                27
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

Recommendation 8 – The Department stated that its information technology
governance structure “limits purchases of IT products prior to obtaining
documentation that the products are deployable.” This recommendation is
unresolved pending more specific information about how the existing structure
assures that purchases are limited prior to evidence that they can be deployed.




Elliot P. Lewis
December 22, 2004




28                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed




Exhibits




U.S. Department of Labor—Office of Inspector General                                29
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




30                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                               Exhibit A


                             Timeline of Key Events

    Date                                         Event
 05/02/2001      DOL publishes “sources sought” notice for file encryption
                 products in Commerce Business Daily.
 06/14/2001      DOL’s ITC sends a request for quote and capabilities study to
                 eight small businesses.
 11/26/2001      DOL’s PRB reviews request to award a sole-source contract to
                 Meganet; estimated contract value is $950,000.
 12/05/2001      The ASAM approves awarding a sole-source contract to
                 Meganet.
 02/01/2002      DOL awards sole-source contract to Meganet; original contract
                 value is between $1.1 and $4 million.
 02/05/2002      DOL approves first invoice for $613,200 to Meganet.
 06/06/2002      DOL modifies Meganet contract scope to add new products and
                 services; no PRB review.
 12/04/2002      The former Deputy CIO requests expansion of Meganet contract
                 to include quantities requested by USDA.
  12/2002        The CIO’s Special Assistant begins employment at DOL.
 12/24/2002      DOL enters into agreement with Videla to purchase Entrust
                 encryption products.
 02/11/2003      The ASAM withdraws request to the PRB for modification of
                 Meganet contract based on the CIO Special Assistant’s
                 recommendation.
  03/2003        The ASAM makes decision not to use Meganet products.
 03/28/2003      The former Deputy CIO leaves DOL employment.
 06/02/2003      DOL pays final invoice for $664,300 to Meganet. Total contract
                 payments equal $3.8 million.
 07/24/2003      Complainant raises concerns about Meganet contract to OIG.
 07/31/2003      The ASAM’s Special Assistant sends an e-mail to several SOL
                 attorneys. The e-mail contains a proposed memo for their
                 review from the ASAM to the IG referring the Meganet contract
                 for review. In the e-mail, the ASAM’s Special Assistant states
                 that it is inappropriate to mention the former Deputy CIO’s
                 apparent conflict of interest to the IG.
 08/04/2003      The ASAM sends a memo to the IG referring the Meganet
                 contract for possible review by the OIG.
 09/29/2003      The current Deputy CIO sent a letter to Meganet stating that
                 DOL will not be using Meganet products.




U.S. Department of Labor—Office of Inspector General                                31
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




32                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed




Appendices




U.S. Department of Labor—Office of Inspector General                                33
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




34                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                            Appendix A


Background
On July 24, 2003, we received allegations from a complainant concerning a contract
that DOL had awarded to Meganet for the purchase of encryption software for file
and e-mail security. As a result, we began gathering preliminary information on the
contract.

On August 4, 2003, DOL’s Assistant Secretary for Administration and Management
(ASAM) sent a memorandum to the DOL Inspector General (IG), referring the
Meganet procurement and contract for audit consideration. In the memorandum,
and a subsequent discussion with OIG auditors, the ASAM raised three issues that
had come to his attention about the sole-source contract awarded to Meganet:

   1. The terms of the actual sole-source contract awarded to Meganet varied
      significantly from those presented to the PRB for review and approved by
      him.

   2. Other contractors might have been able to provide products to meet DOL
      needs at a lower price than Meganet. Thus, the Meganet contract may have
      been improperly awarded on a sole-source basis.

   3. DOL had decided not to use the products purchased from Meganet.

The IG acknowledged the ASAM's referral in a memorandum on August 7, 2003,
noting that the OIG was already looking into aspects of this procurement as a result
of a complaint received.

History of Meganet Contract Award

In May 2001, DOL published a “sources sought” notice in the Commerce Business
Daily to identify companies that could provide commercial off-the-shelf software to
perform file level encryption. This requirement was to support the implementation of
the Government Paperwork Elimination Act (GPEA) by providing confidentiality and
authentication capabilities for stored data. DOL required that the software be
compatible with its PKI and any applications used by the general public (e.g.,
Microsoft Office 2000 and Outlook).

In May 2001, DOL’s Information Technology Center (ITC) determined that eight of
the fifteen responses received were from small businesses. As a result, DOL
decided to limit the procurement to small businesses.

In June 2001 DOL requested that each of the responding small businesses provide
a capabilities study. Three of the companies responded to this request; one was

U.S. Department of Labor—Office of Inspector General                                35
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

disqualified because it did not provide the detailed capability information required.
Subsequently, two ITC officials completed technical evaluations of proposals
submitted by Meganet and Systems Plus. Only Meganet was determined to have an
off-the-shelf product ready for distribution.

After requesting and obtaining approval from the A/S for Administration and
Management, DOL awarded a contract to purchase file encryption and digital
signature software and support services to Meganet on a sole-source basis effective
February 1, 2002. Subsequent to the original award, DOL modified the Meganet
contract to allow the purchase of an additional (third) product – e-mail encryption
software.

In December 2002, DOL entered into an agreement with Videla International
Corporation (Videla) to lease Entrust products including software for file encryption
and digital signature.

By March 2003, DOL had ordered and received the maximum quantities (10,000
units of each product) allowed under the Meganet contract at a total cost of $3.8
million.

In September 2003, DOL notified Meganet by letter that it did not intend to
implement any of the Meganet products purchased and that it would not make any
additional purchases under the existing contract.

As of December 2004, DOL had paid Videla $1.6 million to use 40,000 Entrust PKI
certificates, e-mail encryption and digital signature software to enable use of these
certificates, and related hardware and maintenance.

Key Participants

Several DOL personnel were involved in the award and administration of the
Meganet contract, the decision not to implement the Meganet software, and the
procurement of Entrust encryption software through the Videla contract. During the
relevant timeline, some individuals left DOL, others joined DOL, and still others
changed job responsibilities. The following chart is presented to assist in
understanding the organizational roles of these individuals.




36                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                                                          Award and Management of Contracts for
                                                                                     Encryption Software Were Significantly Flawed

                                                      Organization Chart
                        DOL Office of Assistant Secretary for Administration and Management (OASAM)
                                  Procurement and Information Technology Functions Only


                                                                                                          Special Assistant to the
                                                                                                           Assistant Secretary
                                                      Assistant Secretary for
                                                  Administration and Management
                                                   (and Chief Information Officer)



                                                                                                          Special Assistant to the
                                                                                                          Chief Information Office




                                                          Deputy Assistant
                                                       Secretary for Operations




  Director, Information Technology Center                                                  Director, Business Operations Center
   (and Deputy Chief Information Officer)



                                                                                             Office of Procurement Services


             Contracting Officer’s
             Technical Representative




U.S. Department of Labor—Office of Inspector General                                                                                 37
Report Number: 05-05-005--07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




38                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                            Appendix B



Objectives, Scope, Methodology,
and Criteria

Objectives

Our objectives were to determine:

   •    Was the sole-source contract awarded to Meganet Corporation (Meganet) in
        compliance with government-wide procurement regulations and DOL
        procurement policies?

   •    Did DOL provide adequate justification for not using the products purchased
        through the Meganet contract and, if so, did DOL adequately justify not
        attempting to recover the $3.8 million paid to Meganet?

   •    What is the current status of DOL’s file and e-mail encryption capability?

Scope

The focus of the audit was the appropriateness and adequacy of DOL’s award and
management of Contract # J-9-M-2-0012. This contract was a sole-source award to
Meganet to provide commercial off-the-shelf encryption software, licensing, and
maintenance. The contract was effective on February 1, 2002, for a 3-year period.

Methodology

OIG auditors completed the objectives by (a) reviewing pertinent Federal and DOL
contracting regulations and policies, (b) reviewing and analyzing all available
documentation related to the award and management of the Meganet contract, and
(c) interviewing all appropriate DOL and contractor officials and staff involved in
either the award or management activities. Due to the lack of available
documentation and the conflicting testimonial evidence received, OIG auditors
obtained sworn statements from selected individuals with knowledge of the contract
award and management activities.

Our audit was performed in accordance with generally accepted Government
Audit Standards issued by the Comptroller General of the United States.




U.S. Department of Labor—Office of Inspector General                                 39
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed


Criteria

18 U.S.C. Section 208
18 U.S.C. Section 216
5 CFR 2635.502
Federal Acquisition Regulation
Secretary’s Order 1-2000
Secretary’s Order 3-2003
Secretary’s Order 4-76
DLMS-2
DLMS-8, Chapter 700
DLMS-9, Chapter 200
DOL’s Guide to IT Capital Investment Management




40                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                            Appendix C


Acronyms and Abbreviations
ASAM          Assistant Secretary for Administration and Management
CIO           Chief Information Officer
COTR          Contracting Officer’s Technical Representative
COTS          Commercial-Off-the-Shelf
DAEO          Designated Agency Ethics Officer
DLMS          Department of Labor Manual Series
DOL           Department of Labor
ECN           Employee Computer Network
FAR           Federal Acquisition Regulation
FIPS          Federal Information Processing Standards
FY            Fiscal Year
IG            Inspector General
IT            Information Technology
ITC           Information Technology Center
Meganet       Meganet Corporation
NIST          National Institute of Standards and Technology
OASAM         Office of the Assistant Secretary for Administration and Management
OIG           Office of Inspector General
OPS           Office of Procurement Services
PKI           Public Key Infrastructure
PRB           Procurement Review Board
RFI           Request for Information
SOL           Office of the Solicitor
SOW           Statement of Work
TECC          Test, Evaluation and Certification Center
TRB           Technical Review Board
U.S.C.        United States Code
USDA          United States Department of Agriculture
VME           Virtual Matrix Encryption




U.S. Department of Labor—Office of Inspector General                                41
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




                     THIS PAGE INTENTIONALLY LEFT BLANK




42                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                            Appendix D



Definitions of Key Technical Terms
Decryption
The process of transforming encrypted data back to its original form so that it can be
understood.

Digital certificates
The digital equivalent of an ID card used in conjunction with a public key encryption
system.

Digital signature
An electronic signature that is used to authenticate the identity of the sender of a
message or the signer of a document. A digital signature can also be used to
ensure the original content of the message or document was not altered after it was
signed.

Digital signature application
Software that allows a user to digitally sign documents.

E-mail encryption software
Software used to protect the confidentiality of e-mail messages by encrypting and
decrypting the e-mail between sender and receiver.

Encryption
The process of transforming information from plain text into a format that cannot be
easily understood by unauthorized persons.

Encryption application
Application that allows for encryption and decryption of data.

File encryption
To encrypt a file (data, text, etc.) in order to protect its contents from unauthorized
access.

License
A permission code, received from a software developer, which allows the user to
gain access to a particular version of software (sometimes called a “registration
code”).


U.S. Department of Labor—Office of Inspector General                                43
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed

Public Key Infrastructure
A framework for creating a secure method for exchanging information based on
public key cryptography. The foundation of a PKI is the certificate authority (CA),
which issues digital certificates that authenticate the identity of organizations and
individuals over a public system such as the Internet. The certificates are also used
to sign messages, which ensures that messages have not been tampered with.




44                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed

                                                                            Appendix E




Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                45
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




46                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
                                                  Award and Management of Contracts for
                                             Encryption Software Were Significantly Flawed




U.S. Department of Labor—Office of Inspector General                                47
Report Number: 05-05-005-07-720
Award and Management of Contracts for
Encryption Software Were Significantly Flawed




48                                    U.S. Department of Labor—Office of Inspector General
                                                           Report Number 05-05-005-07-720
